June 1. 2021
By Electronic Filing
Danny Bickell
Deputy Clerk for Practice and Procedure
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

No. 20-1570, HRB Tax Group, Inc., et al. v. Derek Snarr

Dear Mr. Bickell:
I am counsel for respondent in the above-referenced case. On May 12, 2021, a
petition for a writ of certiorari was docketed in this case. Unless extended by the
Court, the response would be due on June 11, 2021. For the reasons that follow, and
pursuant to Rule 30.4, I respectfully request an extension of 30 days, to and
including Monday, July 12, 2021. (The requested extension encompasses 31
calendar days because the 30th day falls on a Sunday.)
I was first retained in this case to prepare the brief in opposition after the
petition was filed, and I require time to familiarize myself with the case. In
addition, I have and have had a number of pressing obligations during the standard
response period, including among other things the need to prepare a reply in
support of a petition for certiorari in this Court, to prepare for and participate in an
evidentiary hearing in federal district court, to prepare and file an amicus brief in
the U.S. Court of Appeals for the Ninth Circuit, to prepare a merits brief in the D.C.
Circuit, and to prepare comments on a regulatory proposal by the National
Highway Traffic Safety Administration. An extension will allow me to meet these
obligations while filing a response that adequately addresses the points raised in
the petition. The extension will not affect the timing of the Court’s consideration of
the petition.
For these reasons, I ask that an extension be granted to and including July
12, 2021. Thank you for your attention to this matter
Sincerely yours,

Scott L. Nelson
Counsel for Respondent
cc: Archis Parasharami, Counsel for Petitioner

